Appeal: 20-1276

Doc: 12

Filed: 07/27/2020

/1jx

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1276

TANVEER S. MAJID,
Plaintiff - Appellant,
v.

CENTRAL INTELLIGENCE AGENCY (CIA):
Defendant - Appellee.

Appeal from the United States District Court for die District of Maryland, at Greenbelt.
Deborah K. Chasanow, Senior District Judge. (8:20-cv-00233-DKC)
Submitted: July 23,2020

Decided: July 27,2020

Before WILKINSON, MOTZ, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Tanveer S. Majid, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Appeal: 20-1276

Doc: 12

Filed: 07/27/2020

%

Pg: 2 of 2

PER CURIAM:
Tanveer S. Majid appeals the district court’s order dismissing his 42 U.S.C. § 1983
(2018) complaint under 28 U.S.C, § 1915(e)(2)(B) (2018). We have reviewed the record
and find no reversible error. Accordingly, we affirm for the reasons stated by the district
court. Majid v. Cent. Intelligence Agency, No. 8:20-cv-00233-DKC (D. Md. Mar, 4,2020).
We deny Majid’s motion to expedite. We dispense with oral argument because the facts
and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

2

•SL

Case 8:20-cv-00233-DKC Document 4 Filed 03/04/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
TANVEER S. MAJID,

*

Plaintiff,

*

Civil Action No. DKC-20-0233

v.

CENTRAL INTELLIGENCE AGENCY
(CIA),

*

Defendant
***

MEMORANDUM OPINION
Plaintiff Tanveer S. Majid filed the above-captioned complaint on January 27, 2020,
together with a motion to proceed in forma pauperis. ECF Nos. 1,2. Because Plaintiff appears
indigent, the motion will be granted. For reasons stated below, however, the complaint shall be
dismissed.
Plaintiff filed this complaint in forma pauperis pursuant to 28 U.S.C. § 1915(a)(1), which
permits an indigent litigant to commence an action in this court without prepaying the filing fee. •
To guard against possible abuses of this privilege, the statute requires dismissal of any claim that
is frivolous, malicious, or fails to state a claim on which relief may be granted. 28 U.S.C. §
1915(e)(2)(B)(i) and (ii). When considering whether a claim is frivolous, § 1915(e)(2) grants
courts “the unusual power to pierce the veil of the complaint’s factual allegations and dismiss those
claims whose factual contentions are clearly baseless.” Neitzke v. Williams, 490 U.S. 319, 327
(1989). A complaint Is frivolous where “it lacks an arguable basis either in law or in fact.” McLean
v. United States, 566 F.3d 391, 399 (4th Cir. 2009) (quoting Neitzke, 490 U.S. at 327).
The complaint alleges that the Defendant Central Intelligence Agency (“CIA”) has engaged
in “harassment, stalking and surveillance” of Plaintiff 24 hours per day, seven days per week in

V

Case 8:20-cv-G0233-DKC Document 4 Filed 03/04/20 Page 2 of 2

multiple states and locations. Plaintiff alleges that the CIA is subjecting him to “frequency
harassment” which includes being assaulted electronically through radio and microwave
frequencies. Complaint, ECF No. 1. Plaintiff details in a CD, filed with the court as an exhibit,
events supporting his allegations. The CD includes video footage taken as Plaintiff drives to
various locations. The footage shows vehicles with one headlight on, vehicles that are sitting off
the road, and law enforcement vehicles on the side of the road. Text is included in the CD
indicating Plaintiff’s belief that these otherwise innocuous events represent people that were
given his location by “Rogue US Intelligence Agency employees” to spy on Plaintiff.
Because the complaint fails to provide any information that might lead to a reasonable
conclusion that some plausible cause of action has accrued on Plaintiff’s behalf, it will be
dismissed pursuant to § 1915(e)(2).
Accordingly, the motion for leave to proceed in forma pauperis will be granted and the
complaint will be dismissed without prejudice. A separate order follows.

/s/
DEBORAH K. CHASANOW
United States District Judge

March 4,2020

2

U.

Case 8:20-cv-00233-DKC Document 5 Filed 03/04/20 Page 1 of 1

1

3a_

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
*

TANVEERS. MAJID,
*

Plaintiff,
*

v.

Civil Action No. DKC-2G-0233
*

CENTRAL INTELLIGENCE AGENCY
(CIA),
Defendant

*
*

ORDER
For the reasons set forth in the foregoing Memorandum, it is this 4th day of March, 2020,
by the United States District Court for the District of Maryland hereby ORDERED that:
1.

The motion for leave to proceed informa pauperis (ECF No. 2) IS GRANTED;

2.

The complaint (ECF No. 1) is DISMISSED without prejudice; and

3.

The Cleric IS DIRECTED to mail a copy of this Order to Plaintiff and CLOSE this
case.
1st
DEBORAH K. CHASANOW
United States District Judge

Additional material
from this filing is
available in the
Clerk's Office.

